No. 20-1069

 

 

IN THE

Supreme Court of the Anited States

JANSSEN PHARMACEUTICALS, INC.,
JOHNSON & JOHNSON COMPANY, AND JANSSEN
RESEARCH AND DEVELOPMENT, LLC,

Petitioners,
Vv.

AY., ETAL.
Respondents.

On Petition for a Writ of Certiorari to the Supreme Court
of Pennsylvania

BRIEF FOR THE PHARMACEUTICAL RESEARCH
AND MANUFACTURERS OF AMERICA, CHAMBER OF
COMMERCE OF THE UNITED STATES OF AMERICA,
AND AMERICAN TORT REFORM ASSOCIATION AS
AMICI CURIAE IN SUPPORT OF CERTIORARI

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
4,688 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on March 8, 2021.

Colin Casey vob

Wilson-Epes Printing Co., Inc.
